          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of GSA’s Mobile
           Computing Initiatives
           Report Number A130016/O/F/F13003
           September 10, 2013




A130016/O/F/F13003
                             Office of Audits
                             Office of Inspector General
                             U.S. General Services Administration


                                                 REPORT ABSTRACT
OBJECTIVE                               Audit of GSA’s Mobile Computing Initiatives
The objective of this audit was to      Report Number A130016/O/F/F13003
determine whether the General           September 10, 2013
Services Administration’s (GSA)
implementation of initiatives for
mobile devices and mobile               WHAT WE FOUND
applications was consistent with its
information technology (IT)             We identified the following during our audit:
strategic goal for access to GSA
systems from Any Location,              Finding 1 – GSA lacks comprehensive standards for mobile application security,
Anytime, and Any Device (A3) and        privacy, and development, increasing risk to deployed mobile applications.
the White House’s Digital
Government Strategy. Specifically,      Finding 2 – GSA OCIO guidance on mobile device acquisition does not sufficiently
this audit focused on the following:    address risks associated with brand name specifications and could result in
    Did the GSA Office of the          excessive expenditures and contractor protests to awards.
     Chief Information Officer
                                        Finding 3 – GSA’s mobile device assessment process was not documented, which
     (OCIO) fulfill its milestone
     actions related to mobile          could result in knowledge loss due to personnel disruptions.
     devices and mobile
     applications under the White
     House's Digital Government         WHAT WE RECOMMEND
     Strategy?
    Did the GSA Chief Information      Based on our audit findings we recommend the GSA CIO:
     Officer’s (CIO) policies and       1. Develop comprehensive standards for mobile applications including:
     procedures for mobile                     a. Security standards to address the following risks:
     computing sufficiently address                       i. Exploitation of vulnerabilities due to poor programming practices
     security and privacy controls                       ii. Compromise of sensitive application data
     for mobile devices and mobile                      iii. Not completing security assessment and authorization
     applications, include sufficient
                                                             requirements
     GSA user training, and include
     approval of mobile application
                                               b. Privacy standards to include directions on creating and distributing
     terms of service?                              privacy notices.
 Were GSA’s services and staff                c. Development standards to identify mobile platforms to target for publicly
     offices adhering to GSA OCIO                   available applications.
     guidance on mobile                 2. Ensure that currently deployed mobile applications meet the updated standards.
     computing?                         3. Issue guidance and/or training related to tablet device acquisition to remind
                                           acquisition personnel about requirements for brand name specifications.
                                        4. Formally document the process for reviewing mobile devices.

                                        MANAGEMENT COMMENTS
Finance & Information
Technology Audit Office                 Management agreed with our findings and recommendations. The GSA CIO’s
1800 F Street, NW, Suite 5215           complete response is presented in Appendix B.
Washington DC 20405
202-273-7322




        A130016/O/F/F13003                                    i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

  DATE:            September 10, 2013
  TO:              Casey Coleman
                   Chief Information Officer (I)

  FROM:            Donna Peterson-Jones
                   Audit Manager, (JA-F)
  SUBJECT:         Audit of GSA’s Mobile Computing Initiatives
                   A130016/O/F/F13003

 This report presents the results of our audit of GSA’s Mobile Computing Initiatives. Our
 findings and recommendations are summarized in the Report Abstract. Instructions
 regarding the audit resolution process can be found in the email that transmitted this
 report.

 Your written comments to the draft report are included in Appendix B of this report.

 If you have any questions regarding this report, please contact me or any member of
 the audit team at the following:

Donna Peterson-Jones     Audit Manager             donna.peterson@gsaig.gov       202-273-7334
Terry Williams           Auditor-In-Charge         terry.williams@gsaig.gov       202-273-7329
Dominique Lipscomb       Management Analyst        dominique.lipscomb@gsaig.gov   202-273-7322
Damian Pryor             Management Analyst        damian.pryor@gsaig.gov         202-273-7322
Steven Swantek           Auditor                   steven.swantek@gsaig.gov       202-273-7322

 On behalf of the audit team, I would like to thank you and your staff for your assistance
 during this audit.




 A130016/O/F/F13003                       ii
Table of Contents

Introduction ....................................................................................................... 1


Results
Finding 1 – GSA lacks comprehensive standards for mobile application security,
           privacy, and development, increasing risk to deployed mobile
           applications ....................................................................................... 3
Finding 2 – GSA OCIO guidance on mobile device acquisition does not
          sufficiently address risks associated with brand name specifications
          and could result in excessive expenditures and contractor protests to
          awards .............................................................................................. 4
Finding 3 – GSA’s mobile device assessment process was not documented,
           which could result in knowledge loss due to personnel disruptions......... 5
Recommendations. .............................................................................................. 5
Management Comments ...................................................................................... 5


Conclusion ........................................................................................................ 6


Appendixes
Appendix A – Purpose, Scope, and Methodology .......................................... A-1
Appendix B – Management Comments .......................................................... B-1
Appendix C – Report Distribution .................................................................. C-1




    A130016/O/F/F13003                                      iii
Introduction
One of the General Services Administration’s (GSA) information technology (IT)
strategic goals is to provide access to GSA systems from Any Location, Anytime, and
Any Device (A3). 1 The A3 goal has two initiatives relating to mobile devices and mobile
applications. One initiative seeks to provide the GSA workforce with secure access to
GSA's IT resources and systems regardless of how, where, or when they are working.
The second seeks to transform enterprise and legacy applications using modern
technologies (e.g. middleware, web, and mobile computing), architecture, and
frameworks to enable access from any device, anywhere, and at anytime.

Specific GSA actions associated with A3 include procuring and connecting mobile
devices to GSA systems, optimizing existing web sites for mobile use, and developing
mobile applications for its legacy systems. GSA has implemented a mobile device
management platform to assist in controlling access to enterprise resources, such as
email and virtual desktop connections. At the time of our audit, GSA had developed
four mobile applications for legacy web sites that were publicly available on the Apple or
Google Play mobile application stores. In addition, GSA was in the process of
developing other mobile applications for internal use.

On August 2, 2011, GSA decentralized the acquisition of mobile devices. At that time,
the GSA Chief Information Officer (CIO) issued an instructional letter to the Heads of
Services and Staff Offices and Regional Administrators delegating responsibility for the
acquisition of tablet devices to the services and staff offices. 2

On May 23, 2012, the White House launched the Digital Government Strategy to
coordinate efforts and focus on taking an information- and customer-centric approach to
changing how the government works and delivers services. 3 Digital Government
Strategy milestone actions include a requirement that agencies improve priority,
customer-facing services for mobile use.

The objective of this audit was to determine whether GSA’s implementation of initiatives
for mobile devices and mobile applications was consistent with its IT strategic goal for
access to GSA systems from A3 and the White House’s Digital Government Strategy.
Specifically, this audit focused on the following:

       Did the GSA Office of the Chief Information Officer (OCIO) fulfill its milestone
        actions related to mobile devices and mobile applications under the White
        House's Digital Government Strategy?



1
  GSA FY12–15 Information Technology Strategic Business Plan,
http://www.gsa.gov/graphics/staffoffices/itstrategicplan2012.pdf.
2
  GSA CIO IL-11-01, Smart Phone and Tablet Device Acquisition and Support Policy, August 2, 2011.
3
  Digital Government: Building a 21st Century Platform to Better Serve the American People,
http://www.whitehouse.gov/sites/default/files/omb/egov/digital-government/digital-government.html.


A130016/O/F/F13003                            1
      Did the GSA CIO policies and procedures for mobile computing sufficiently
       address security and privacy controls for mobile devices and mobile applications,
       include sufficient GSA user training, and include approval of mobile application
       terms of service?
      Were GSA’s services and staff offices adhering to GSA OCIO guidance on
       mobile computing?

See Appendix A – Purpose, Scope, and Methodology for additional details.




A130016/O/F/F13003                      2
Results
Finding 1 – GSA lacks comprehensive standards for mobile application security,
privacy, and development, increasing risk to deployed mobile applications.

GSA has released mobile applications that were not assessed for mobile security risks,
lacked privacy notices, and/or inconsistently targeted mobile platforms. This resulted
from GSA not comprehensively addressing security, privacy, and development risks in
standards relating to mobile applications.

Standards for security of mobile applications
While GSA requires all applications to undergo GSA’s security assessment and
authorization process in accordance with the Federal Information Security Management
Act of 2002 (FISMA4), none of the released mobile applications underwent required
security assessments and authorizations. Developers of these mobile applications did
not deem this requirement to be applicable prior to release to the Apple or Google Play
mobile application stores. However, not completing these required activities reduces
the assurance that security requirements for systems are being implemented correctly,
operating as intended, and producing the desired outcome.

GSA developed and released four mobile applications. After the release, GSA OCIO
established procedures specifying the required evaluations for mobile applications (both
GSA developed and commercially developed) using the National Institute of Standards
and Technologies (NIST) Special Publication (SP) 800-53 controls. 5 However, we
determined that these controls did not comprehensively address mobile security risks.
The risks identified in the Open Web Application Security Project (OWASP) Mobile
Security Project included weak server side controls, insecure data storage, and
insufficient transport layer protections. 6 Exploitation of these risks could affect the
confidentiality, integrity, or availability of deployed mobile applications. In addition, our
evaluation of the four GSA developed mobile applications found that none were
assessed for these mobile-specific risks.

Standards for privacy of mobile applications
Privacy information that could be captured from a mobile application includes device
identifications, location, camera and/or photos, Internet Protocol (IP) addresses, and
contacts. A privacy notice helps ensure that the public has notice and choice about,
and thus confidence in, how their personal information is handled when they use the
mobile applications. Best practices identified in a Federal Trade Commission report

4
  FISMA requires agencies to develop and maintain minimum controls required to protect federal
information and information systems.
5
  NIST SP 800-53, Recommended Security Controls for Federal Information Systems and Organizations,
Rev. 3, August 2009.
6
  OWASP is a not-for-profit organization focused on improving the security of software. The OWASP
Mobile Security Project is a centralized resource intended to give developers and security teams the
resources they need to build and maintain secure mobile applications. See
https://www.owasp.org/index.php/OWASP_Mobile_Security_Project.


A130016/O/F/F13003                            3
recommended that mobile application developers ensure that their privacy notice is
easily accessible through the app stores. 7 However, GSA has not developed privacy
standards for mobile applications to ensure that publicly available applications include
privacy notices. Our evaluation of GSA’s mobile applications found that none had
privacy notices specific to data usage captured from the use of mobile applications.
The lack of privacy notices could reduce the public’s confidence that GSA will
appropriately use their information.

Standards for development of mobile applications
According to GSA’s System Development Life Cycle Policy, 8 the GSA CIO assumes
responsibility for assuring that IT is well governed in GSA, including establishing and
maintaining local system development life cycle processes, practices, standards, and
governance. However, GSA’s development standards have not been updated to
identify target platforms for mobile applications developed for the public (e.g., Android or
Apple iOS). As a result, GSA’s approach to targeting platforms has been inconsistent.
In fact, one GSA staff office developed one mobile application only for Android, and
developed another mobile application only for Apple’s iOS. Since the purpose of these
mobile applications is to reach the public, inconsistent targeting of platforms limits
GSA’s audience.

Finding 2 – GSA OCIO guidance on mobile device acquisition does not
sufficiently address risks associated with brand name specifications and could
result in excessive expenditures and contractor protests to awards.

We identified two acquisitions for 19 iPads and accessories totaling $14,775.34 that
were made using brand name specifications. The Federal Acquisition Regulation (FAR)
11.104-11.105 prohibits the use of brand name specifications except under very limited
circumstances. 9 We believe the improper specification of brand names is of particular
concern in tablet device acquisitions because preferences derived from personal
experiences tend to be particularly strong when it comes to mobile devices. 10 However,
GSA Instructional Letter CIO IL-11-01 Smart Phone and Tablet Device Acquisition and
Support Policy does not provide guidance related to brand name specification
requirements for tablet device acquisitions.        The agency’s use of brand name
specifications could result in excessive expenditures in tablet device acquisitions due to
the lack of full and open competition and could increase the risk of contractor protests to
agency contract awards.




7
  Mobile Privacy Disclosures, Building Trust Through Transparency , February 2013,
http://www.ftc.gov/os/2013/02/130201mobileprivacyreport.pdf.
8
  GSA Order CIO 2140.3, CIO Systems Development Life Cycle (SDLC) Policy, September 29, 2006.
9
  For the purposes of this audit, a brand name specification is defined as a description that specifies a
particular brand name, product, or product feature that is peculiar to one manufacturer. (FAR 11.105)
10
   According to Pew Research Center’s Project for Excellence in Journalism, mobile device operating
system loyalty is exhibited among those that have both a tablet computer and a smartphone. See
http://www.journalism.org/analysis_report/device_ownership.


A130016/O/F/F13003                             4
Finding 3 – GSA’s mobile device assessment process was not documented,
which could result in knowledge loss due to personnel disruptions.

According to Office of Management and Budget Circular A-123, management needs to
ensure that appropriate policies, procedures, and mechanisms exist with respect to
each of the agency’s activities. However, the security assessment for GSA’s mobile
devices has not been documented. The Office of the Senior Agency Information
Security Officer (OSAISO) has one staff member reviewing mobile devices for GSA
employees prior to approval for access to GSA internal systems. Since the process is
not documented, if GSA loses the employee, it will no longer have knowledge of the
process or of the requirements. 11

Recommendations

Based on our audit findings we recommend the GSA Chief Information Officer:

     1. Develop comprehensive standards for mobile applications including:
           a. Security standards to address the following risks:
                   i. Exploitation of vulnerabilities due to poor programming practices
                  ii. Compromise of sensitive application data
                 iii. Not completing security assessment and authorization
                      requirements
           b. Privacy standards to include directions on creating and distributing privacy
              notices.
           c. Development standards to identify mobile platforms to target for publicly
              available applications.

     2. Ensure that currently deployed mobile applications meet the updated standards.

     3. Issue guidance and/or training related to tablet device acquisition to remind
        acquisition personnel about requirements for brand name specifications.

     4. Formally document the process for reviewing mobile devices.

Management Comments

Management agreed with our findings and recommendations. The GSA CIO’s complete
response is presented in Appendix B.




11
  During the audit the OSAISO provided a checklist of requirements including encryption and proper
functioning in the GSA mobile device management platform for device approval.


A130016/O/F/F13003                             5
Conclusion
We found that GSA is making progress in its IT strategic goal to provide enhanced
mobile access to GSA systems and data. First, GSA fulfilled its milestone actions
related to mobile devices and mobile applications under the White House's Digital
Government Strategy by prioritizing two existing, major, customer-facing services for
modernization. Second, our evaluation of the mobile device management platform
identified that it enforces security controls for mobile devices in accordance with GSA
requirements. Third, user training on mobile devices informs users of mobile-specific
security concerns. Fourth, GSA reviews terms of service for mobile applications before
approval for agency use.

However, GSA can strengthen the implementation of its mobile computing initiatives by:

      (1) Developing comprehensive standards for mobile application security, privacy,
          and development;
      (2) Ensuring that mobile applications undergo required security assessment and
          authorizations and meet updated standards;
      (3) Providing guidance on mobile device acquisition that sufficiently addresses
          risks associated with brand name specifications, specifically to prevent
          excessive expenditures and contractor protests; and
      (4) Documenting processes to ensure continuity of GSA’s mobile device
          assessments to prevent knowledge loss in case of personnel disruptions.

We believe that making the improvements recommended in this report will better enable
GSA to provide enhanced mobile access to the agency’s systems and data.




A130016/O/F/F13003                     6
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was performed to assess GSA’s actions to provide enhanced mobile access
to government systems and data. It was included in the Office of Inspector General’s
Fiscal Year (FY) 2013 Audit Plan.

Scope

The audit’s scope includes results of the Office of Inspector General’s evaluations of the
OCIO’s oversight of the implementation of the GSA’s mobile computing initiatives as it
relates to mobile devices and applications.

Methodology

To accomplish our objectives, we:

       Interviewed OCIO officials implementing mobile computing initiatives associated
        with its A3 strategy.
       Interviewed mobile application developers in the Federal Acquisition Service,
        Office of Government-Wide Policy, Office of Citizen Services and Innovative
        Technologies, and Office of the Chief Information Officer.
       Performed walkthroughs to verify: (1) controls to manage mobile devices in
        GSA's mobile device management platforms and (2) controls for security testing
        of mobile platforms.
       Reviewed applicable mobile device and application privacy, security,
        development, and acquisition regulations, policies, and guidance.
       Reviewed GSA’s services and staff offices’ adherence to GSA CIO guidance on
        mobile computing by: (a) testing deployed mobile applications for security
        controls, privacy controls, and adherence to development standards and (b)
        evaluating tablet computer purchases for compliance with procurement
        regulations (e.g. Trade Agreements Act, fair opportunity, and brand name
        purchases).

We conducted the audit between October 2012 and March 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




A130016/O/F/F13003                     A-1
Internal Controls

This audit included a review of elements of GSA’s mobile computing initiatives, relating
to management of mobile devices, oversight of mobile application development, and
limited testing of controls over acquisition of mobile tablets.       The Results and
Recommendations sections of this report state, in detail, the need to strengthen specific
processes and controls in implementation of the GSA CIO’s mobile computing
initiatives.




A130016/O/F/F13003                     A-2
Appendix B – Management Comments




A130016/O/F/F13003    B-1
Appendix C – Report Distribution

GSA Chief Information Officer (I)

Senior Agency Information Security Officer (IS)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, Office of the Chief Information Officer (I)

Assistant Inspector General for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130016/O/F/F13003                       C-1
